MARCH 19, 2009
  AUDIT REPORT




                                                      OFFICE OF AUDITS




     EVALUATION AND OVERSIGHT OF NASA’S
  UNIVERSITY-AFFILIATED SPACEPORT TECHNOLOGY
  DEVELOPMENT CONTRACT NEEDED IMPROVEMENT




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-09-012 (ASSIGNMENT NO. S-08-013-00)
Final report released by:

   signed
Evelyn R. Klemstine
Assistant Inspector General for Auditing




Acronyms

ASRC         Arctic Slope Regional Corporation
CO           Contracting Officer
COTR         Contracting Officer’s Technical Representative
FAR          Federal Acquisition Regulation
FY           Fiscal Year
GAO          Government Accountability Office
KSC          Kennedy Space Center
MIDAS        Management Information Decision Analysis System
NFS          NASA FAR Supplement
PDR          Preliminary Design Review
SB           Small Business
TO           Task Order
USTDC        University-Affiliated Spaceport Technology Development Contract


                                                                 REPORT NO. IG-09-012
MARCH 19, 2009




                                                                             OVERVIEW

      EVALUATION AND OVERSIGHT OF NASA’S UNIVERSITY-
       AFFILIATED SPACEPORT TECHNOLOGY DEVELOPMENT
               CONTRACT NEEDED IMPROVEMENT

                                                                              The Issue

  The Office of Inspector General received an anonymous complaint alleging that the
  performance of the Arctic Slope Regional Corporation (ASRC), ASRC Aerospace
  Corporation, did not meet the contract requirements of NASA’s University-Affiliated
  Spaceport Technology Development Contract (USTDC), NAS10-03006. Specifically,
  the complainant alleged that contract deliverables for task order (TO) 425 under contract
  NAS10-03006 were not timely and that deliverables did not meet minimum standards
  specified in the contract’s statement of work. We were unable to ascertain whether
  ASRC Aerospace Corporation deliverables for TO 425 were timely and met contract
  performance standards because TO 425 only identified a completion date for technical
  engineering support; it did not identify specific dates for design deliverables. Therefore,
  we expanded our objectives to determine whether fiscal year (FY) 2007 performance
  evaluation factors provided a fair and objective assessment of the contractor’s
  performance and whether cost data submitted to NASA by the contractor during FY 2008
  for the 9-month period of October 2007 through June 2008 was accurate. To meet our
  objectives, we initiated an audit of 191 TOs that were active at the end of FY 2007. Of
  those TOs, we identified 113 that did not include milestones, and we statistically selected
  a sample of 51 TOs for further review (see Appendix A for details of the audit’s scope
  and methodology).

  The USTDC is a performance-based; indefinite-delivery, indefinite-quantity; cost-
  reimbursement-award-fee; and incentive-fee contract administered by Kennedy Space
  Center (KSC). The objective of the USTDC is to provide a broad range of non-routine
  engineering development services and products to KSC organizations and operational
  customers. TOs are used to define contract tasks, requirements, funding targets and
  limits, milestones, performance indicators, and performance standards. TOs for the
  USTDC are drafted by TO managers, approved by the contracting officer’s technical
  representative (COTR), and issued by the contracting officer (CO). The amount of award
  fee the contractor earns is based on an evaluation of the contractor’s performance against
  criteria established in the USTDC Award Fee Plan, which includes Technical, Cost,
  Business, and Special Areas of Emphasis performance areas.




REPORT NO. IG-09-012
                                                                                       OVERVIEW



     Results

     We found that performance evaluation factors used to assess ASRC Aerospace
     Corporation’s performance were not TO-specific and did not provide the basis for a fair
     and objective assessment of the USTDC contractor’s performance. Because performance
     evaluation factors were not TO-specific and tied to desired outcomes as required by
     acquisition regulations, the performance evaluations provided little evidence that the
     approximately $2.2 million in USTDC award fees for FY 2007 were fully justified or
     were an accurate reflection of the contractor’s performance. In addition, we found that
     overtime premium costs were not adequately monitored and cost controls were
     ineffective. Our analysis of cost data submitted to NASA by ASRC Aerospace
     Corporation from October 2007 through June 2008 identified possible unauthorized
     overtime premium pay. This occurred because the USTDC CO was never notified by
     either the contractor or any of the TO managers that overtime premiums were needed.

     Performance Evaluation Factors Were Not Specific. We found that FY 2007
     performance evaluation factors did not provide a fair and objective assessment of the
     USTDC contractor’s performance. Performance evaluation factors used to assess ASRC
     Aerospace Corporation’s performance were not TO-specific and could not be
     consistently tied to desired outcomes. In addition, the Award Fee Evaluation Report that
     documents assessments of the contractor’s performance did not identify which
     performance metrics were considered critical. This occurred because TO managers and
     the COTR did not follow guidance in the NASA “Award Fee Contracting Guide,”
     June 27, 2001, and the USTDC Award Fee Plan. As a result, we were unable to verify
     that ASRC Aerospace Corporation’s FY 2007 performance evaluation rating was fully
     justified or that the award fees received were an accurate reflection of the contractor’s
     performance. ASRC Aerospace Corporation received an excellent performance
     evaluation rating (96) and $2.2 million of the available $2.4 million in award fees for
     FY 2007.

     KSC contracting personnel divided contractor performance evaluations into four
     performance areas for FY 2007: Technical, Cost, Special Areas of Emphasis, and
     Business. Our review determined that Technical performance evaluation factors were too
     general to accurately assess the contractor’s performance. Of the 51 TOs in our sample,
     we found that 46 (90 percent) did not include specific dates for contract deliverables and
     did not have performance evaluation factors that could be tied to deliverables in the TO.
     However, the USTDC Award Fee Plan identifies milestone performance as a critical
     metric that should be used to evaluate Technical performance.

     NASA Federal Acquisition Regulation Supplement (NFS) 1816.405-274, “Award Fee
     Evaluation Factors,” states that contractor performance evaluation factors should be
     explicit and tied to desired outcomes. Additionally, a recent Government Accountability




ii                                                                         REPORT NO. IG-09-012
OVERVIEW



  Office audit report 1 states that NASA does not always follow its award fee guidance and,
  in some cases, there appears to be a significant disconnect between the contractor’s
  performance and fees paid. KSC contracting personnel did not always follow NASA
  guidance and developed Technical performance evaluation factors that were often
  generic and not specifically tied to any desired outcomes. For example, one performance
  evaluation survey included “Quality of Work” as a performance evaluation factor, but did
  not identify any of the tasks in the TO, how the tasks were to be evaluated, or any of the
  desired outcomes.

  Cost performance evaluation factors were generally inaccurate because the evaluation
  factors did not measure labor hours and labor costs that fell below the negotiated amounts
  in the contract. When the metrics were originally developed, KSC contracting personnel
  did not include formulas in the Cost performance metrics to compute labor hours and
  labor costs below the contract’s negotiated amounts. The formulas did not allow for a
  reduction in scores when labor hours and labor costs fell below the negotiated amounts,
  indicating either that the ASRC Aerospace Corporation was unable to meet the staffing
  levels required under the contract or that labor hours and cost estimates in the contract
  were overstated. For FY 2007, ASRC Aerospace Corporation’s labor hours and labor
  costs were approximately 20 percent and 19 percent, respectively, below the negotiated
  amounts.

  We also identified approximately 5,000 hours of uncompensated overtime that was
  included in the labor hours reported by the contractor for the 9-month period ending June
  2008. The contractor stated that uncompensated overtime hours were unpaid hours
  worked in support of the USTDC. However, we were unable to match uncompensated
  overtime hours reported by the contractor to individual task orders using the contractor’s
  monthly financial management report. Therefore, we were unable to verify whether the
  hours were actually worked. Including uncompensated overtime hours in the total labor
  hours could inappropriately elevate contractor performance evaluations and increase the
  amount of award fee earned by the contractor. The contractor’s average labor rate
  appears to be lower because labor costs are calculated using labor hours that include
  uncompensated overtime hours.

  Performance evaluation factors for Special Areas of Emphasis did not always identify the
  desired outcomes or how the outcomes were to be measured. This occurred because KSC
  contracting personnel did not always follow NFS guidance and developed performance
  evaluation factors for Special Areas of Emphasis that were often generic and open-ended
  statements. For example, one of the six unverifiable performance factors stated that the
  contractor should ensure support of NASA’s Exploration Mission with an appropriate
  mix of technical skills while continuing to provide superior quality support to existing
  programs. However, the performance evaluation factor did not identify what skill mix
  was appropriate or how superior quality support to existing programs would be

  1
      “NASA Procurement: Use of Award Fees for Achieving Program Outcomes Should Be Improved”
      (GAO-07-58, January 17, 2007).



REPORT NO. IG-09-012                                                                            iii
                                                                                                OVERVIEW



     measured. As a result, contractor performance in Special Areas of Emphasis could not be
     verified. We did not find any significant issues in the Business area.

     Overtime Costs Not Monitored. Our analysis of cost data submitted to NASA by
     ASRC Aerospace Corporation from October 2007 through June 2008 identified 34 active
     TOs for FY 2008 that included overtime premium pay 2 that may not have been
     authorized by the contract. Federal Acquisition Regulation (FAR) 22.103-3(c) states:
     “When it becomes apparent that overtime will be required in contract performance, the
     CO shall secure from the contractor a request for all overtime to be used during the life of
     the contract.” However, the CO was never notified by either the contractor or any of the
     TO managers that overtime premiums were needed. The CO and the COTR stated they
     were unaware that the contractor was charging overtime or that overtime premium was
     being paid. These overtime premium hours and costs were not broken out separately in
     the contractor’s monthly financial management report. Without this level of visibility, it
     is difficult for the CO to monitor these hours and costs to ensure that the discretion
     provided by the exceptions in Contract Clause 52.222-2(b), “Payment for Overtime
     Premiums,” is not abused. Therefore, we question the $136,000 in overtime premiums
     paid to the contractor for the 9-month period ending June 2008.

     Management Action

     We recommended that the USTDC CO require the COTR and TO managers to develop
     new Technical and Special Areas of Emphasis performance evaluation criteria for any
     new TO issued during the remaining option years of the USTDC. Also, performance
     evaluation criteria should be TO-specific and tied to contract deliverables, milestones,
     and desired outcomes. In addition, we recommended that the CO revise Cost
     performance metrics to ensure that Cost performance evaluation factors assess all direct
     costs. The CO should require the contractor to include uncompensated overtime hours as
     a separate line item in the contractor’s monthly financial management report. In
     addition, the CO should ensure that the COTR properly identifies critical metrics in the
     Award Fee Evaluation Report.

         To improve monitoring and controls over contract costs, the CO should require the
         contractor and TO managers to document and request overtime premiums in accordance
         with USTDC’s Contract Clause 52.222-2(b), “Payment for Overtime Premiums,” and
         FAR 22.103-3(c), “Procedures.” The CO should require the contractor to include
         overtime premium hours and costs as separate line items in the contractor’s monthly
         financial management report, thereby allowing for better monitoring of overtime
         premium costs in accordance with USTDC’s Contract Clause 52.222-2(b), “Payment for
         Overtime Premiums.”



     2
         Premium pay is computed at one and a half times the employee’s labor rate.



iv                                                                                    REPORT NO. IG-09-012
OVERVIEW



  In response to a draft of this report, issued February 19, 2009, the Director of KSC’s
  Office of Procurement (the KSC Procurement Director) concurred with our
  recommendations and stated that the USTDC CO will require the COTR and TO
  managers to develop new Technical performance evaluation criteria for any new TO
  issued during the remaining option years of the USTDC. The KSC Procurement Director
  agreed to require the USTDC CO to revise Cost performance metrics, to ensure that Cost
  performance evaluation factors assess all direct costs and to ensure that performance
  evaluation factors identified in the Award Fee Plan as critical are also identified as
  critical in the Award Fee Report. The KSC Procurement Director also agreed to require
  that the USTDC CO document overtime premium requirements in accordance with
  FAR 52.222-2(b) and to require that the contractor include overtime premium pay hours
  and cost as separate line items in the contractor’s monthly financial management report.

  The corrective actions described by management are responsive to our recommendations.
  The recommendations are resolved and will be closed upon completion and verification
  of management’s corrective action. (See Appendix B for the full text of management’s
  comments.)




REPORT NO. IG-09-012                                                                         v
MARCH 19, 2009




                                                         CONTENTS

  INTRODUCTION
      Background __________________________________________ 1
      Objectives ___________________________________________ 2

  RESULTS
      Finding A: Contractor Performance Evaluations Were Not Always
                  Accurate and Objective _______________________ 4
      Finding B: Overtime Premium Costs Were Not Adequately
                  Monitored_________________________________ 11

  APPENDIX A
      Scope and Methodology _______________________________ 15
      Review of Internal Controls _____________________________ 16
      Prior Coverage_______________________________________ 17

  APPENDIX B
      Management Comments _______________________________ 18

  APPENDIX C
      Report Distribution ___________________________________ 21




REPORT NO. IG-09-012
MARCH 19, 2009




                                                                      INTRODUCTION


Background

  The Office of Inspector General conducted this audit after receiving an anonymous
  complaint alleging that the performance of a subsidiary of the Arctic Slope Regional
  Corporation (ASRC), ASRC Aerospace Corporation, did not meet contract requirements
  of NASA’s University-Affiliated Spaceport Technology Development Contract
  (USTDC), NAS10-03006. Specifically, the complainant alleged that contract
  deliverables for task order (TO) 425 under contract NAS10-03006 were not timely and
  that deliverables did not meet minimum standards specified in the contract’s statement
  of work.

  The USTDC, administered by Kennedy Space Center (KSC), is a performance-based;
  indefinite-delivery, indefinite-quantity; cost-reimbursement-award-fee; and incentive-fee
  contract. Award fees are intended to encourage and reward the contractor for safe, high-
  quality, cost-conscious performance in fulfilling contract requirements. Incentive fees
  are intended to encourage the contractor to market the facilities and technical capabilities
  at KSC to commercial and other Government customers to ensure that those facilities and
  technical capabilities are fully utilized. Under a performance-based contract, contract
  requirements are described in terms of what the required output is rather than specify
  how the work is to be accomplished. TOs are used to define contract tasks, requirements,
  funding targets and limits, milestones, performance indicators, and performance
  standards. TOs for the USTDC are drafted by TO managers, approved by the contracting
  officer’s technical representative (COTR), and issued by the contracting officer (CO).
  NASA designated the Defense Contract Audit Agency as the approval authority for
  provisional billing for the USTDC; therefore, contractor invoices are sent directly to the
  Defense Contract Audit Agency and are not reviewed by the CO.

  Award fee determinations are made by the KSC Performance Evaluation Board, based on
  an Award Fee Evaluation Report and any additional information provided by the
  contractor. In the Award Fee Evaluation Report, the COTR and CO will make a
  consolidated recommendation of an overall adjective rating and numerical score. The
  NASA “Award Fee Contracting Guide,” June 27, 2001, requires the following adjective
  ratings and numerical scores to be used on all award fee contracts: Excellent, 100-91;
  Very Good, 90-81; Good, 80-71; Satisfactory, 70-61; and Unsatisfactory, less than 61.




REPORT NO. IG-09-012                                                                             1
                                                                                                        INTRODUCTION



    The Award Fee Evaluation Report does not include individual scores or computations
    used to arrive at the overall recommendation. Summaries of the TOs are discussed in the
    USTDC Award Fee Evaluation Report, which divides the performance evaluation into
    four performance areas:

           •   Technical: combines performance data for all TOs worked during the evaluation
               period.
           •   Cost: evaluates efforts and initiatives made by the contractor to control cost.
           •   Business: includes factors that impact the whole contract, such as safety, quality
               assurance, and resource and contract management.
           •   Special Areas of Emphasis: specific areas of contract performance that are
               emphasized in the award fee evaluation for the contract period. For example, the
               contractor was required to ensure an appropriate mix of technical skills to support
               NASA’s Exploration Mission while continuing to provide superior quality
               support to existing programs.

    ASRC Aerospace Corporation, the prime contractor for the USTDC, is an aerospace
    engineering company that specializes in systems engineering, hardware and software
    system design and development, network engineering, hardware maintenance,
    information management, and systems research and development. The base period of the
    USTDC was from March 1, 2003, through September 30, 2007, with a maximum order
    value of $220 million. However, KSC contracting personnel only issued USTDC TOs
    equaling $138 million of the $220 million, with available award fees 3 of $6.8 million and
    available incentive fees 4 of $1.7 million. During this base period, USTDC earned
    $6.3 million in award fees and $343,300 in incentive fees. In October 2007, KSC
    exercised an option to extend the contract for a 3-year period, through September 30,
    2010, increasing the maximum order value to $430 million. During this option period,
    USTDC’s available award fee could increase by approximately $12.6 million; there
    would be no increase to available incentive fee. Including all options, the maximum
    order value for the contract is $600 million.


Objectives

    In response to the complaint, we initiated a preliminary review in February 2008 to
    determine whether TO deliverables provided by the ASRC Aerospace Corporation were
    timely and whether the ASRC Aerospace Corporation met contract performance
    standards in the USTDC statement of work. Because performance evaluation factors for

    3
        Available award fee is 6 percent of the adjusted target cost (total estimated cost less direct materials and
        other direct costs for each TO issued).
    4
        Available incentive fee is 1.5 percent of the adjusted target cost (total estimated cost less direct materials
        and other direct costs for each TO issued).



2                                                                                             REPORT NO. IG-09-012
INTRODUCTION



  TO 425 were not specific and tied to desired outcomes, we expanded our objectives to
  determine whether fiscal year (FY) 2007 performance evaluation factors provided a fair
  and objective assessment of the contractor’s performance and whether cost data
  submitted to NASA by the contractor during FY 2008 for the 9-month period of October
  2007 through June 2008 was accurate. See Appendix A for details of the audit’s scope
  and methodology, our review of internal controls, and prior coverage.




REPORT NO. IG-09-012                                                                       3
                                                                                                  RESULTS




                                                        FINDING A: CONTRACTOR
                                                      PERFORMANCE EVALUATIONS
                                                     WERE NOT ALWAYS ACCURATE
                                                                 AND OBJECTIVE

              Contractor performance evaluations included in the Award Fee Evaluation Report
              for the contract period ending September 30, 2007, did not always provide an
              accurate and objective assessment of the contractor’s performance. Performance
              evaluation factors used to assess ASRC Aerospace Corporation’s performance were
              not TO-specific and could not be consistently tied to desired outcomes. This
              occurred because TO managers and the COTR did not follow guidance in the NASA
              Federal Acquisition Regulation Supplement (NFS) 1816.405-274, “Award Fee
              Evaluation Factors,” and NASA “Award Fee Contracting Guide,” June 27, 2001.

              NFS and NASA’s Award Fee Contracting Guide state that contractor performance
              evaluation factors should be explicit, tied to desired outcomes, and based on
              characteristics of an individual procurement. In addition, a recent Government
              Accountability Office (GAO) audit report 5 states that NASA does not always follow
              its award fee guidance and, in some cases, there appears to be a significant
              disconnect between the contractor’s performance and fees paid. We found that
              performance evaluation factors were inaccurate, unverifiable, or too general to
              accurately assess the contractor’s performance in the Technical, Cost, and Special
              Areas of Emphasis performance areas. We did not identify any significant issues in
              the Business performance area, but we did determine that critical performance
              metrics were not properly identified in the Award Fee Evaluation Report. As a
              result, we were unable to verify that ASRC Aerospace Corporation’s FY 2007
              performance evaluation rating was fully justified or that the award fees received
              were an accurate reflection of the contractor’s performance. ASRC Aerospace
              Corporation received an excellent performance evaluation rating (96) and
              $2.2 million of the available $2.4 million in award fees for FY 2007.


Technical Performance

    Performance evaluation factors used to evaluate Technical performance were not
    TO-specific and were too general to accurately assess the contractor’s performance.
    TO managers assess a contractor’s performance and provide an adjective rating and a
    numerical score for each TO on a quarterly basis. Adjective ratings and scores are


    5
        “NASA Procurement: Use of Award Fees for Achieving Program Outcomes Should Be Improved”
        (GAO-07-58, January 17, 2007).



4                                                                               REPORT NO. IG-09-012
RESULTS



  reported to the COTR and documented in an Award Fee Evaluation Report that is
  provided to the KSC Performance Evaluation Board.

  KSC contracting personnel stated that Technical performance is the most important
  performance area considered during the award fee evaluation process. The Award Fee
  Plan for the USTDC lists milestone performance, TO performance evaluation survey, and
  overall TO ratings as critical metrics for evaluating Technical performance. However,
  KSC contracting personnel did not follow guidance in the USTDC Award Fee Plan and
  NASA’s Award Fee Contracting Guide when they developed their Technical
  performance evaluation factors. For example, of the 191 TOs active at the end of
  FY 2007, 113 (59 percent) did not have milestones. In addition, based on our review of a
  statistical sample of 51 of the 113 TOs without milestones, we determined that the TO
  managers

      •   used performance evaluation surveys consisting of 17 standardized, generic
          questions that were not TO-specific (51, or 100 percent, of the TOs reviewed);

      •   used performance evaluation surveys that did not contain metrics or performance
          evaluation factors that could be tied to TO deliverables (46, or 90 percent, of the
          51 TOs reviewed); and

      •   did not always complete quarterly performance evaluation surveys, even though
          TO evaluation surveys were listed in the Award Fee Plan as a critical evaluation
          factor (8, or 16 percent, of the 51 TOs reviewed).

  During our audit, KSC contracting personnel attempted to improve the performance
  evaluation surveys by revising the FY 2008 surveys to include 10 standardized questions
  to evaluate the contractor’s Technical performance. However, the revised performance
  evaluation surveys still did not meet requirements in NASA’s Award Fee Contracting
  Guide because the 10 evaluation survey questions were not TO-specific. NASA’s Award
  Fee Contracting Guide, Section 3.4.1, “Performance Evaluation Factors,” states that
  evaluation factors used in award fee contracting should not be standardized. The Guide
  also states that rigid standardization tends to generate evaluation plans that either are too
  broad or include factors inapplicable to a given function.


Cost Performance

  Cost performance evaluations used to evaluate the contractor’s labor hours and labor
  costs were not accurate. When the metrics were originally developed, KSC contracting
  personnel did not include Cost performance metrics that accurately computed labor hours
  and labor costs below the negotiated amounts in the contract. Therefore, the formulas in
  the metrics did not allow for a reduction in scores when labor hours and labor costs fell
  below negotiated amounts. The Cost performance area included five performance
  evaluation factors that assessed the contractor’s labor rate, labor hours, labor costs,


REPORT NO. IG-09-012                                                                              5
                                                                                                             RESULTS



    overhead rate, and other direct costs. The CO rated the contractor’s overall Cost
    performance as Good, with an average score of 73 for the five performance evaluation
    factors. However, our analysis showed that Cost performance evaluation factors did not
    accurately compute labor hours and costs that fell below the negotiated amounts in the
    contract. Our review of FY 2007 labor hours and labor costs, as reported by the
    contractor in monthly financial management reports, 6 showed that labor hours and labor
    costs were approximately 19 percent and 20 percent, respectively, below the negotiated
    amounts, 7 which should have lowered the labor hour and labor cost scores. However, we
    noted that the labor hour and labor cost metrics included a calculation that automatically
    scores them as 95 or more when labor hours and costs are below or equal to negotiated
    amounts in the contract. This scoring practice results in an overall Cost performance
    score that does not adequately consider labor hours and labor costs below negotiated
    amounts in the contract. The CO noted that the metrics did not adequately consider
    underruns 8 and was in the process of revising the metrics for FY 2008 when the audit
    began.

    Although the CO and COTR revised all of the Cost performance evaluation factors for
    FY 2008, we noted that the overhead rates and other direct costs no longer received a
    Cost performance evaluation score for FY 2008. This occurred because KSC contracting
    personnel decided to monitor overhead rates as a trend metric 9 instead of a scored
    performance evaluation factor. The evaluation factor for other direct costs was
    eliminated because contracting personnel determined that TO managers could monitor
    these items at the TO-level. However, NASA FAR Supplement 1816.405-274, “Award
    Fee Evaluation Factors,” states that the predominant consideration of a cost control
    evaluation should be a measurement of the contractor’s performance against the
    contract’s negotiated estimated costs. Our evaluation of cost data for FY 2008 identified
    that approximately $19 million of the contractor’s $66 million in direct costs were
    excluded from the cost evaluation process because of the elimination of Cost
    performance evaluation factors for other direct costs. As a result, the revised FY 2008
    Cost performance factors did not adequately measure the contractor’s Cost performance
    because approximately 29 percent of the contractor’s direct costs were excluded from the
    cost evaluation.

    We also identified approximately 5,000 hours of uncompensated overtime that was
    included in the labor hours reported by the contractor for the 9-month period reviewed.
    The contractor stated that uncompensated overtime hours were unpaid hours worked in

    6
        Contractors provide detailed cost data in NASA Form 533M, “Monthly Contractor Financial
        Management Report.”
    7
        Underrunning negotiated amounts indicates the contractor is unable to meet the contract’s required
        staffing levels or was overestimating work.
    8
        The CO’s rationale for revising the metrics was “Only measuring overruns incentives the contractor to
        always overestimate work.”
    9
        Those measurements that are useful to collect and evaluate over time but do not receive a performance
        evaluation score.



6                                                                                        REPORT NO. IG-09-012
RESULTS



  support of the USTDC. However, we were unable to match uncompensated overtime
  hours reported by the contractor to individual task orders because uncompensated
  overtime hours were not identified separately in the monthly financial management
  reports. Therefore, we were unable to verify whether the hours were actually worked.
  Including uncompensated overtime hours in the total labor hours could inappropriately
  elevate contractor performance evaluations and increase the amount of the award fee
  earned by the contractor. The contractor’s average labor rate appears to be lower because
  labor costs are calculated using labor hours that include uncompensated overtime.
  Including uncompensated overtime in labor hours also improves the contractor’s labor
  hour planning and total labor hour metrics. The CO and TO managers stated they were
  unaware that the contractor had included uncompensated overtime in labor hour cost data
  provided to NASA.


Special Areas of Emphasis

  Our review determined that FY 2007 performance evaluation factors for Special Areas of
  Emphasis were generic, open-ended statements and that six of the eight performance
  evaluation factors used were unverifiable. Performance evaluation factors did not
  identify the desired results or how the desired results were measured. Following are the
  six performance evaluation factors that we determined to be unverifiable:

      •   Ensure appropriate technical skill mix to support NASA’s Exploration Mission,
          while continuing to provide superior quality support to existing programs.

      •   Ensure continued emphasis and support to Constellation Level III and IV
          integration efforts performed by NASA and other Constellation contractor teams.

      •   Continued emphasis on teamwork and communication with NASA.

      •   Continued emphasis on TO closeout when appropriate.

      •   Continue progress made in implementing Management Information Decision
          Analysis System (MIDAS) features in order to enhance management reporting
          and planning.

      •   Implementation of Earned Value Management principles per the Management
          Plan or as required by specific customers.

  The USTDC Award Fee Plan states that Special Areas of Emphasis are used by the
  Government to document the specific areas of contract performance that will be
  emphasized in the award fee evaluation. However, we found that six of the eight
  performance evaluation factors were subjective with no specific performance indicators.
  None of the eight evaluation factors listed “outcome” or “output” indicators or the
  method to be used to evaluate contractor performance. During interviews, both the CO


REPORT NO. IG-09-012                                                                          7
                                                                                                         RESULTS



    and the COTR stated that they did not agree that Special Areas of Emphasis were
    required to include measurable performance evaluation factors and that they intentionally
    left the performance evaluation factors very broad. However, NASA Headquarters
    issued Procurement Notice 04-27, dated June 29, 2007, which revises NFS 1816 to
    reemphasize the importance of tying award fee criteria to desired outcomes. These
    changes were made in response to the recommendations for improving NASA Award Fee
    Policy in the GAO audit report, “NASA Procurement: Use of Award Fees for Achieving
    Program Outcomes Should Be Improved” (GAO-07-58, January 2007).

    Further, GAO’s audit report states that while NASA’s evaluations would indicate
    generally good contractor performances, such performances did not always translate into
    desired program outcomes. The report states that such a disconnect raised questions as to
    the extent that NASA was achieving its desired outcome as intended by the award fee
    criteria. In response to the report’s recommendation, NASA agreed to reemphasize the
    importance of tying award fee criteria to desired outcomes and limiting the number of
    subfactors used in evaluations.


Business Performance

    We did not identify any significant issues in the Business performance area. The
    November 2, 2007, USTDC Award Fee Evaluation Report rated the Business
    performance area as Excellent. The Business performance area includes performance
    evaluation factors associated with safety and mission assurance, covering work-related
    mishaps, to include injuries and property damage. The factors state that no more than
    one work-related injury per quarter is acceptable. Our review of performance evaluation
    factors indicated that the contractor had only one work-related injury and no property
    damage mishaps for FY 2007.

    The Business performance area also included seven performance evaluation factors for
    “Business and Management Systems Reviews.” We noted that one of the seven
    evaluation factors was to evaluate the contractor’s success in meeting “Small Business
    (SB) Subcontracting Goal” in support of NASA’s Socioeconomic Program. Our review
    determined that using an SB Subcontracting Goal as a performance evaluation factor was
    not necessary because the contractor was already an 8(a) 10 firm and had already received
    credit toward the Agency’s Socioeconomic Program goal. However, the SB
    Subcontracting Goal evaluation factor was only one of seven factors and had a minimal
    impact on the overall evaluation of the Business performance area. Therefore, we did not
    consider this to be a significant issue.



    10
         The 8(a) Program is named for the section of the Small Business Act that authorizes its policies and
         procedures. The purpose of the Program is to assist eligible firms to compete in the American economy
         through business development.



8                                                                                       REPORT NO. IG-09-012
RESULTS



Critical Performance Metrics

   We determined that the USTDC Award Fee Evaluation Report, November 2, 2007, used
   by the Fee Determining Official to evaluate the contractor’s performance did not identify
   whether any of the performance metrics were critical. The USTDC’s Award Fee Plan 11
   identifies 8 critical metrics and 15 non-critical metrics. Critical metrics are considered
   key indicators of contract performance. However, there was no distinction between
   critical and other metrics in the USTDC Award Fee Evaluation Report because the
   COTR failed to identify critical performance evaluation factors in the Award Fee
   Evaluation Report provided to the Award Fee Board. NASA’s Award Fee Contracting
   Guide, paragraph 3.2.1, requires the Performance Evaluation Board and the Fee
   Determination Official to evaluate a contractor’s performance according to the standards
   and criteria stated in the Award Fee Plan. Therefore, it is essential that the Award Fee
   Evaluation Report identify metrics that are critical and key indicators of the contractor’s
   performance. As a result, the KSC Performance Evaluation Board and the Fee
   Determination Official’s determination included non-critical metrics in addition to
   critical metrics, which are the key indicators of the contractor’s performance.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. The USTDC CO should require the COTR and TO managers to
develop new Technical and Special Areas of Emphasis performance evaluation criteria for
any new TO issued during the remaining option years of the USTDC. Performance
evaluation criteria should be TO-specific and tied to contract deliverables, milestones, and
desired outcomes.

   Management’s Response. The KSC Procurement Director concurred, stating that the
   USTDC CO will require the COTR and TO managers to develop new Technical
   performance evaluation criteria for any new TO issued during the remaining option years
   of the USTDC. Performance evaluation criteria will be TO-specific and tied to contract
   deliverables, milestones, and desired outcomes. The USTDC CO will require the COTR
   and TO managers to maximize the use of objective performance outcomes for Special
   Areas of Emphasis while retaining the flexibility to use subjective evaluation techniques
   where appropriate. Action is to be completed for the unexercised option periods
   beginning October 1, 2010, in accordance with the recommendation.

   Evaluation of Management’s Response. Management’s proposed action is responsive.
   The recommendation is resolved and will be closed upon completion and verification of
   management’s corrective action.


   11
        The Award Fee Plan identifies contract level metrics used to evaluate the contractor’s performance.



REPORT NO. IG-09-012                                                                                          9
                                                                                        RESULTS



Recommendation 2. The USTDC CO should revise Cost performance metrics to ensure
that Cost performance evaluation factors assess all direct costs.

     Management’s Response. The KSC Procurement Director concurred, stating that the
     USTDC CO will ensure that Cost performance evaluation factors assess all direct costs.
     Action is to be completed by November 15, 2009.

     Evaluation of Management’s Response. Management’s proposed action is responsive.
     The recommendation is resolved and will be closed upon completion and verification of
     management’s corrective action.

Recommendation 3. The USTDC CO should require the contractor to include
uncompensated hours as a separate line item in the contractor’s monthly financial
management report.

     Management’s Response. The KSC Procurement Director concurred, stating that the
     USTDC CO will require the contractor to break out uncompensated overtime to a
     separate line in the contractor’s monthly financial management report. Action is to be
     completed by May 15, 2009.

     Evaluation of Management’s Response. Management’s proposed action is responsive.
     The recommendation is resolved and will be closed upon completion and verification of
     management’s corrective action.

Recommendation 4. The USTDC CO should require the COTR to identify critical
performance evaluation factors in the Award Fee Evaluation Report provided to the KSC
Performance Evaluation Board.

     Management’s Response. The KSC Procurement Director concurred, stating that the
     USTDC COTR will ensure that performance evaluation factors identified in the Award
     Fee Plan as critical are also identified as such in the Award Fee Evaluation Report.
     Action is to be completed by November 15, 2009.

     Evaluation of Management’s Response. Management’s proposed action is responsive.
     The recommendation is resolved and will be closed upon completion and verification of
     management’s corrective action.




10                                                                        REPORT NO. IG-09-012
RESULTS




                                                      FINDING B: OVERTIME PREMIUM
                                                                  COSTS WERE NOT
                                                            ADEQUATELY MONITORED

              We determined, based on our analysis of cost data submitted to NASA by the
              contractor from October 2007 through June 2008, that overtime costs were not
              adequately monitored. This occurred because TO managers did not adequately
              monitor overtime hours charged to their TOs. Federal Acquisition Regulation
              (FAR) 16.301-3, “Limitations,” states that a cost-reimbursement contract may be
              used only when the contractor’s accounting system can adequately determine costs
              applicable to the contract and appropriate Government surveillance during the
              performance period will provide reasonable assurance that efficient methods and
              effective cost controls are used. Our review disclosed that KSC paid $136,000 to
              the contractor during the 9-month period of our review for overtime that may not
              have been authorized by the contract.


Overtime Premium Pay

  Because of the problems we identified with FY 2007 Cost performance evaluation
  factors, as discussed in Finding A, we reviewed cost data submitted to NASA by the
  contractor during FY 2008. Our analysis identified 34 active TOs for FY 2008 that
  included overtime premium pay 12 that may not have been authorized by the USTDC.
  Contract Clause 52.222-2, paragraph (a), “Payment for Overtime Premiums,” states that
  overtime premiums are not authorized unless the overtime premium is paid for work that
  meets one of the exceptions in FAR 52.222-2, paragraph (a)(1-4). We attempted to
  verify that the overtime premium paid met one of the exceptions; however, the contractor
  was unable to provide documentation for the overtime premiums in question. Therefore,
  we question the $136,000 in overtime premiums paid to the contractor for the 9-month
  period ending June 2008.

  Contract Clause 52.222-2(a) states:
              [T]he use of overtime is authorized under this contract if the overtime premium does
              not exceed *$0 or the overtime premium is paid for work—(1) Necessary to cope
              with emergencies such as those resulting from accidents, natural disasters,
              breakdowns of production equipment, or occasional production bottlenecks of a
              sporadic nature; (2) By indirect-labor employees such as those performing duties in
              connection with administration, protection, transportation, maintenance, standby plant
              protection, operation of utilities, or accounting; (3) To perform tests, industrial
              processes, laboratory procedures, loading or unloading of transportation conveyances,
              and operations in flight or afloat that are continuous in nature and cannot reasonably


  12
       Premium pay is computed at one and a half times the employee’s labor rate.



REPORT NO. IG-09-012                                                                                   11
                                                                                                             RESULTS



            be interrupted or completed otherwise; or (4) That will result in lower overall costs to
            the Government.
            * Insert either “zero” or the dollar amount agreed to during negotiations. The inserted figure
            does not apply to the exceptions in paragraph (a)(1) through (a)(4) of the clause.

     FAR 22.103-3, “Procedures,” paragraph (c), states that “[w]hen it becomes apparent . . .
     that overtime will be required in contract performance, the contracting officer shall
     secure from the contractor a request for all overtime to be used during the life of the
     contract.” However, the CO stated that because the Defense Contract Audit Agency had
     delegation authority to approve contractor vouchers for provisional payments, he did not
     review contractor vouchers. Therefore, he was unaware that the contractor was receiving
     overtime premium payments. FAR 1.602-2, “Responsibilities,” requires the CO to
     ensure that the contractor complies with terms and conditions in the contract. The CO
     was never notified by either the contractor or any of the TO managers that overtime
     premiums were needed. Only 1 of the 16 TO managers responsible for the 34 TOs stated
     that he was aware that overtime premiums were being charged to his TO. Further, the
     contractor’s monthly financial management report did not identify overtime premium
     hours and costs separately from regular overtime hours. Therefore, the CO and the
     COTR did not have adequate information to provide sufficient oversight in this area.

     Contract Clause 52.222-2(b) states:
            [R]equests for estimated overtime premiums shall: (1) identify the work unit in which
            the requested overtime will be used, together with workload, staffing, and other data
            to permit the Contracting Officer to evaluate the necessity for the overtime;
            (2) demonstrate the effect that denial of the request will have on the contract delivery
            or performance schedule; (3) identify the extent to which approval of overtime would
            affect the performance or payments in connection with other Government contracts;
            and (4) provide reasons why the required work cannot be performed by using multi-
            shift operations or by employing additional personnel.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 5. The USTDC CO should require the contractor and TO managers
to document and request overtime premiums in accordance with USTDC’s Contract
Clause 52.222-2(b), “Payment for Overtime Premiums,” and FAR 22.103-3(c)
“Procedures.”

     Management’s Response. The KSC Procurement Director concurred. The USTDC CO
     agreed that overtime premium requirements that do not meet the exceptions found in
     FAR 52.222-2(a) should be documented in accordance with FAR 52.222-2(b). The
     USTDC CO will issue a letter to the contractor calling attention to the contractor’s
     responsibilities under FAR 52.222-2. Action is to be completed by April 1, 2009.




12                                                                                              REPORT NO. IG-09-012
RESULTS



  Evaluation of Management’s Response. Management’s proposed action is responsive.
  The recommendation is resolved and will be closed upon completion and verification of
  management’s corrective action.

Recommendation 6. The USTDC CO should require the contractor to include overtime
premium pay hours and costs as separate line items in the contractor’s monthly financial
management report thereby allowing for better monitoring of Overtime Premium costs in
accordance with USTDC’s Contract Clause 52.222-2(b), “Payment for Overtime
Premiums.”

  Management’s Response. The KSC Procurement Director concurred, stating that the
  USTDC CO will require the contractor to include overtime premium pay hours and costs
  as separate line items in the contractor’s monthly financial management report. Action is
  to be completed by May 15, 2009.

  Evaluation of Management’s Response. Management’s proposed action is responsive.
  The recommendation is resolved and will be closed upon completion and verification of
  management’s corrective action.




REPORT NO. IG-09-012                                                                          13
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from February 2008 through February 2009 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We interviewed KSC contracting officials, KSC Engineering Directorate officials, KSC
  Office of the Chief Financial Officer officials, USTDC governmental TO managers, and
  ASRC Aerospace Corporation contract employees. We discussed areas related to the
  USTDC and contract modifications, as well as ASRC Aerospace Corporation
  background, contract option years, USTDC TOs, TO processes and costs, contract award
  fee and performance evaluation procedures, and contract employee wages and labor
  hours.

  To evaluate whether ASRC Aerospace Corporation met contract performance standards,
  we initially reviewed the USTDC Statement of Work and Data Requirement Deliverables
  for TO 425. In addition, we reviewed the TO evaluation performance history by
  interviewing the COTR and obtaining the completed FY 2007 TO performance history
  and the first three quarters of FY 2008 performance history from the COTR and USTDC
  Internal Surveillance Reports. The COTR identified 191 TOs that were active at the end
  of FY 2007. Our review of the 191 TOs identified 113 TOs without milestones. Using
  EZ-Quant statistical sampling techniques, we statistically selected 51 of the 113 TOs for
  in-depth review. We interviewed TO managers and reviewed the performance history
  from October 1, 2006, through March 31, 2008, for the 51 TOs in our sample. We also
  reviewed in detail the performance evaluation metrics and factors used for the FY 2007
  award fees and individual TOs and the performance evaluation factors for FY 2008 TOs
  to ensure compliance with NASA award fee guidance.

  To assess the adequacy of performance standards included in TOs under USTDC, we
  reviewed the 51 TOs in our statistical sample and specifically evaluated whether
  deliverables were generic and only provided expertise, support, or services for unspecific
  deliverables. We also interviewed TO managers to determine whether the contractor
  achieved the primary purpose of the TO during its stated period of duration.

  To evaluate whether the USTDC contractor met contract cost performance standards, we
  obtained from the COTR the Award Fee Evaluation Report, the financial management
  report (NASA Form 533M), Cost Performance Evaluation Standards, and Cost Metrics


REPORT NO. IG-09-012                                                                           15
                                                                                       APPENDIX A



     Report for October 1, 2006, through March 31, 2008. In addition, for the same period,
     we obtained the contractor’s monthly Labor Rate Analysis, Task Order Target Cost Data
     from the Task Order Cost Sheets, and Statement of Indirect Expenses. We also reviewed
     the March 2003 Contract Proposal Volume IV – Cost Proposal and the March 2003 and
     August 2007 Contract Modification 3, Attachment J-5A, Task Order Pricing Schedule.
     We compiled information from all these sources in a database and spreadsheets. We
     applied the metric formulas and the cost performance evaluation standards to determine
     whether the contractor met contract cost performance standards.


Computer-Processed Data

     We assessed the reliability of ASRC’s computer-generated data by comparing monthly
     payroll data with the monthly NASA Form 533M for the period of October 2007 through
     June 2008 to verify whether the financial report was supported, complete, and accurate.
     We also obtained the USTDC’s June 2008 Project Resource Analysis report, which
     covered October 2007 through June 2008, and compared the data in the report with
     payroll data to determine allocation of TO costs. Further, we compared data from
     MIDAS with the Project Resource Analysis report to verify the TO requirements, plans,
     and funding authority. Finally, we compared data from the USTDC Earned Value
     Management report for the period October 2007 through March 2008 with the Project
     Resource Analysis report to determine whether any TOs exceeded their funding
     authority. We assessed the data as sufficiently reliable, given our research questions,
     verification procedures, and intended use of the data.


Review of Internal Controls

     We reviewed and evaluated the internal controls associated with documenting TO
     requirements, meeting milestones, and reviewing costs. We found internal control
     deficiencies in all three areas, as discussed in this report. Our recommendations, if
     implemented, should correct the weaknesses we identified.




16                                                                          REPORT NO. IG-09-012
APPENDIX A



Prior Coverage

  During the last 5 years, GAO has issued one report of particular relevance to the subject
  of this report: “NASA Procurement: Use of Award Fees for Achieving Program
  Outcomes Should Be Improved” (GAO-07-58, January 17, 2007). The report states that
  approximately half of NASA’s obligated contract dollars for FYs 2002–2004 were for
  cost-plus-award-fee contracts and that NASA generally does not follow the preferred
  approach laid out in its guidance. The report also notes that numerous subfactors may
  dilute the emphasis on any specific criteria. GAO concludes that although NASA’s
  evaluations of contractor performance generally indicate good contractor performance,
  contractor performance did not always translate into desired program outcomes. The
  report also states that NASA has not evaluated the overall effectiveness of award fees and
  does not have metrics in place for conducting such evaluations. Unrestricted reports can
  be accessed over the Internet at http://www.gao.gov (GAO).




REPORT NO. IG-09-012                                                                           17
                      APPENDIX B




     MANAGEMENT COMMENTS




18           REPORT NO. IG-09-012
APPENDIX B




REPORT NO. IG-09-012   19
              APPENDIX B




20   REPORT NO. IG-09-012
APPENDIX C




                                                      REPORT DISTRIBUTION

National Aeronautics and Space Administration Headquarters

  Administrator
  Deputy Administrator
  Chief of Staff
  General Counsel
  Associate Administrator for Institutions and Management

Kennedy Space Center

  Director
  Director, Engineering Directorate
  Director, Office of Procurement
  USTDC Contracting Officer
  USTDC Contracting Officer’s Technical Representative

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, Defense, State, and NASA Financial Management, Office of Financial
        Management and Assurance
     Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Space, Aeronautics, and Related Sciences
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Management, Organization, and Procurement




REPORT NO. IG-09-012                                                                21
                                                                APPENDIX C



Congressional Committees and Subcommittees, Chairman and
  Ranking Member (continued)

     House Committee on Science and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




22                                                     REPORT NO. IG-09-012
Major Contributors to the Report:
   Raymond Tolomeo, Acting Director, Space Operations Directorate
   Larry Chisley, Project Manager
   Wayne Emberton, Auditor
   Arnold Pettis, Auditor
   Madhu LeFevre, Procurement Analyst
   Elizabeth Shifflett, Editor




REPORT NO. IG-09-012                                                23
                                                                                 MARCH 19, 2009
                                                                   REPORT No. IG-09-012




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY09 to obtain additional copies of this report, or contact the
Assistant Inspector General for Auditing at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Ms. Jacqueline White, Quality Assurance
Division Director, at Jacqueline.White@nasa.gov or call 202-358-0203.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
